                               Office of Inspector General
                              Corporation for National and
                                       Community Service




AUDITOF CORPORATION FOR NATIONALAND
 COMMUNITY SERVICEGRANTS  AWARDED
 TO THE NEBRASKA VOLUNTEER SERVICE
            COMMISSION
         OIG REPORT
                  NUMBER
                       05-15



                                               Cor~orationfor
                                              NATIONAL &r
                                                                           a




                                              COMMUNITY
                                              SERVICEE3Z




                       Prepared by:

                  Kearney & Company
              4501 Ford Avenue, Suite 1400
                 Alexandria, VA 22302




This report was issued to Corporation management on April 11, 2005. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than October 11, 2005, and complete its corrective actions by April 11,
2006. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                  Office of Inspector General
                        Corporation for National and Community Service
                                      Audit Report 05-15

  Audit of Corporation for National and Community Service Grants Awarded to the Nebraska
                                Volunteer Service Commission

                                         OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Keamey & Company (Kearney) to perform an incurred-cost audit of
grants awarded to the Nebraska Volunteer Service Commission (Commission). The contract
required that the audit be done in accordance with generally accepted government auditing
standards.

For the grants audited, the Commission claimed costs of $2,984,535, of which the auditors
questioned $60,450 of costs as unallowable. Overall, the auditors questioned approximately 2
percent of claimed costs. The auditors also questioned $17,875 of matching costs.

Costs questioned for allowability represent amounts for which documentation shows that
recorded costs were expended in violation of regulations or specific award conditions, or that
require an interpretation of allowability, or that require additional documentation to substantiate
that the costs were incurred and are allowable. The auditors also noted instances of
noncompliance with provisions of Federal laws, regulations and grant award provisions. The
auditors concluded that the Consolidated Schedule of Award Costs presents fairly the costs
claimed by the Commission, except for the questioned costs identified in the report, and the
effects of any adjustments.

In accordance with our statutory responsibilities, we reviewed Keamey7sreport and related audit
documentation, interviewed their representatives, and performed other procedures deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on the Commission's
Consolidated Schedule of Award Costs, internal controls or conclusions on compliance with
laws and regulations. Kearney is responsible for the attached reports dated November 19, 2004,
and the conclusions expressed therein. However, our review disclosed no instances where
Kearney did not comply, in all material respects, with generally accepted government auditing
standards.

The Office of Inspector General provided officials of the Nebraska Volunteer Service
Commission and the Corporation with a draft of this report for their review and comment. Their
responses are included as Appendices A and B, respectively.
                     Audit of Corporation for National and Community Service
                                        Grants Awarded to
                              Nebraska Volunteer Service Commission
                                        Lincoln, Nebraska

                                                     Table of Contents

SUMMARY AND HIGHLIGHTS

        Results in Brief ..............................................................................................

        Grant Programs Audited ................................................................................

        Costs Questioned ............................................................................................................
                                                                                                                               L


        Member Eligibility and Cost Allowability .....................................................................3

        Compliance ....................................................................................................................
                                                                                                                                 .3
        Internal Controls ............................................................................................................
                                                                                                                                 .3
        Purpose and Scope of Audit ..........................................................................................
                                                                                                                         ..4
        Background ....................................................................................................................
                                                                                                                                 .5

INDEPENDENT AUDITOR'S REPORT ..................................................................................
                                                                                                            .6

CONSOLIDATED SCHEDULE OF AWARDS AND CLAIMED COSTS.. ...........................8

COMPLIANCE AND INTERNAL CONTROLS

                  Independent Auditor's Report on Compliance and on Internal Controls Over
                  Financial Reporting. ........................................................................
                                                                                                            10
                  Member Eligibility and Cost Allowability Findings ......................................... .ll
                  Compliance with Grant Provisions.. ......................................................
                                                                                                        .16
                   Internal Control Findings. ......................................................................24


FINANCIAL SCHEDULES
       Exhibit A - Consolidated Schedule of Audited Award Costs.. .................................
                                                                                                 28

        Exhibit B - Schedule of Award Costs:
                    AmeriCorps ..............................................................................29
Table of Contents - continued


                Schedule B-1 - Schedule of Award Costs:
                               College of Saint Mary's ...................................................
                                                                                                        31

                Schedule B-2 - Schedule of Award Costs:
                               Lutheran Family Services. .............................................
                                                                                                    .32
                Schedule B-3 - Schedule of Award Costs:
                               Lincoln Action Program.. ................................................
                                                                                                      .33
                Schedule B-4 - Schedule of Award Costs:
                               City of Lincoln.. .........................................................
                                                                                                        34

                Schedule B-5 - Schedule of Award Costs:
                               Community Action Nebraska.. .......................................
                                                                                                .35

        Exhibit C - Schedule of Award Costs:
                    Program Development and Training (PDAT). ......................................37

        Exhibit D - Schedule of Award Costs:
                    Administrative.. ........................................................................
                                                                                                           .38

Follow-up on Pre-Audit Survey.. ..............................................................................
                                                                                                          .39

Appendix A - Commission Response

Appendix B - Corporation Response
SUMMARY AND HIGHLIGHTS
KEARNEY&
COMPANY               Certzfed Public Accountants
                      and ConsuLtants




Office of Inspector General
Corporation for National and Community Service
1201 New York Ave. NW, Suite 830
Washington, DC 20525

This report is issued under an engagement to audit the costs claimed by the Nebraska Volunteer
Service Commission (NVSC) and its subrecipients from January 1, 2001 through June 30, 2004,
under the grants awarded by the Corporation for National and Community Service (Corporation).
This report focuses on the audit of claimed costs, instances of noncompliance with Federal laws,
applicable regulations, or award conditions and internal control weaknesses disclosed during the
audit of NVSC and its subrecipients.


                                       Results in Brief

As a result of our audit, we are questioning costs totaling $78,325 ($60,450 Federal share and
$17,875 match). The Federal share questioned is approximately 2.0 percent of the total
$2,984,535 in costs claimed by NVSC. Questioned costs are costs for which there is
documentation that the recorded costs were expended in violation of Federal law, regulations or
specific conditions of the award, or those costs which require additional documentary support by
the grantee or require interpretation of allowability by the Corporation. Details related to
questioned costs appear in the Independent Auditor's Report. The following is a summary of
questioned costs:
       $59,399 of AmeriCorps Member Support Costs claimed in excess of maximum
       Federal Share
       $17,875 of matching expenses that were not based on a systematic allocation method for
       actual expenses
       $1,O5 1 of lodging costs at training Conference for Community Action of Nebraska that
       were not allowable under Federal Travel Regulations.

Details for the above questioned costs appear in the Financial Schedules, Exhibit B, Schedules
B-1 to B-5.
Grant Programs Audited

Our audit of NVSC covered financial transactions, compliance, and internal controls testing of
the following program awards funded by the Corporation:
                                                                       Transactions Reported on
  Program             Award Number               Award Period          Financial Status Reports
AmeriCorps            00ASCNE028              0810 1100 to 12131I03     0810 1101 to 12131I03
AmeriCorps            00ASFNE028              08/01/00 to 12131/03      08/0 1101 to 12131/03
AmeriCorps            03ACHNE00 1             09/01/03 to 0813 1/06     0910 1/03 to 0313 1/04
AmeriCorps            03AFHNE00 1             09110103 to 09/09/06      O9/lO/O3 to 0313 1/04
PDAT                  02PDSNE029              01/01/02 to 12/31/04       0 1101102 to 06/30/04
Administrative        0 1SCSNE029             01/01/01 to 12/31/03       01/01/01 to 06/30/04
Administrative        04CAHNE00 1             01/01/04 to 12/31/06       01/01/04 to 06130104

Our audit of the costs claimed by NVSC under these awards disclosed the following:

                                                                       Percentage of
                                                 Amount               Budczet/Claimed
Award Budget                                   $ 4,270,298               -
Claimed Costs                                  $ 2,984,535              69.9 percent
Questioned Federal Share                       $    60,450               2.0 percent
Questioned Match                               $    17,875                 N/ A

Costs Questioned

The following summarizes the costs questioned on these awards:

AmeriCorps Grant
       AmeriCorps Member Support Costs in Excess of Maximum
       Federal Share (Finding No. 1)                                               $59,399
       Matching Costs (Finding No. 2)                                                  17,875
       Lodging Costs at training Conference; not Allowable per Federal
       Travel Regulations (Finding No. 3)                                               1,05 1

        Total Costs Questioned - AmeriCorps                                        $78.325


Our audit also disclosed certain questionable costs that we considered immaterial for NVSC and
the subrecipients we selected for audit.

We utilized audit sampling techniques to test the costs claimed at NVSC and the subrecipients
selected for testing, as outlined in our Risk Assessment and our Audit Approach Memorandum,
dated September 29, 2004. Based upon this sampling methodology, questioned costs in this
report may not represent total costs that may have been questioned had all expenditures been
tested. In addition, we have made no attempt to project such costs to total expenditures incurred,
based on the relationship of costs tested to total costs. For a complete discussion of these
questioned costs, refer to the Independent Auditor's Report.

Member Eligibility and Cost Allowability

Our audit disclosed the following member eligibility and cost allowability issues:

   1. Two subrecipients were reimbursed for member living allowances in excess of the
      maximum Federal share.
   2. One subrecipient did not have documentation for match.
   3. One subrecipient did not have documentation for lodging costs to verify that the costs
      were reimbursable under Federal Travel Policies.

Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations, and award conditions. Of the 89 member files tested we found:

       Two member files did not contain documentation for eligibility.
       Three members' documentation to support eligibility was provided to the subrecipient
       more than 30 days after enrollment.
       Documentation of the background check was not available at the beginning of our audit
       for six members. The subrecipient subsequently obtained the documentation during our
       audit.
       Fifteen member files tested did not contain position descriptions.
       Three member files tested did not contain member contracts.
       Additional program requirements were not included in all five member contracts for one
       subrecipient.
       Forty-seven member files did not contain both mid-term and end-of-term evaluations.
       Nineteen member files did not contain timesheets showing both the location of service
       performed and the project assignment/description.
       Fifty-six enrollment forms, change of status, and exit forms were not submitted to the
       National Service Trust within 30 days.

Internal Controls

Our audit disclosed several weaknesses in NVSC and its subrecipients.

    1. NVSC and one subrecipient, City of Lincoln, use cash basis accounting for vacation
       expense, which could result in the improper allocation of costs.
    2. One subrecipient did not have proper controls in place to ensure that members were not
       overpaid their living allowance. However, the exceptions that we identified did not result
       in disallowed costs.
    3. One subrecipient did not have documented financial and programmatic policies.
Purpose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Nos. 00ASCNE028,
00ASFNE028, 03ACHNE00 1, 03AFHNE00 1, 02PDSNE029, 0 1SCSNE029, and
04CAHNEW00 1.

The principal objectives of our audit were to determine whether:

       Financial reports prepared by NVSC presented fairly the financial results of the awards;
       Internal controls were adequate to safeguard Federal funds;
       NVSC and its subrecipients had adequate procedures and controls to ensure compliance
       with Federal laws, applicable regulations, award conditions, and that member services
       were appropriate to the programs;
       Award costs reported to the Corporation were documented and allowable in accordance
       with the award terms and conditions; and
       NVSC had established adequate oversight and informed subrecipients of the
       Corporation's Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
amounts claimed against the awards, as presented in the Consolidated Schedule of Award Costs
and the grant-specific Schedules of Award Costs (Exhibits A through D), are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in Exhibits A, B, C, and D. An audit also includes assessing the accounting
principles used and significant estimates made by the auditee, as well as evaluating the overall
financial schedule presentation. Our audit included reviews of audit reports and working papers
prepared by the independent public accountants for NVSC and its subrecipients in accordance
with the requirements of OMB Circular A-133, Audits of States, Local Governments and Non-
proJit Organizations. Our audit also followed up on the findings and recommendations in the
Pre-Award Survey Report of NVSC dated September 5, 2003 (CNS OIG Report 04-06). We
believe our audit provides a reasonable basis for our opinion.

With regard to GPRA, AmeriCorps grantees and subrecipients provide progress reports that are
maintained in the Web-Based Reporting System (WBRS). The Corporation develops program
reporting guidelines that cascade from its Federal reporting requirements. NVSC does not make
continuation grants available to subrecipients that do not meet program objectives, unless
extenuating circumstances prevented the subrecipient from meeting its objectives. NVSC takes
corrective action on identified reporting deficiencies. In summary, the process appears to be
operating as intended.

The contents of this report were disclosed to, and discussed with, NVSC at an exit conference on
December 20, 2004. In addition, we provided a draft of this report to NVSC and to the
Corporation for comment. Responses from both NVSC and the Corporation are included as
Appendices A and B, respectively.
Background

The Corporation, pursuant to the authority of the National and Community Service Trust Act, as
amended, awards grants and cooperative agreements to State commissions such as NVSC and
other entities to assist in the creation of full-time and part-time national and community service
programs.

NVSC is a state agency under Nebraska Health and Human Services, established by Governor
Executive Order in 1994 to promote, mobilize, and support efforts of Nebraskans who are united
in strengthening their communities, state, and nation through community service. NVSC is
headquartered in Lincoln, Nebraska.

As of June 30, 2004, NVSC had received funding from the Corporation for various programs
within the scope of this engagement in the amount of $4,270,298. The majority of this amount
has been subgranted to numerous entities to carry out community service programs. A brief
synopsis of the programs is provided on Page 9.




   f@'~
Ed ard F. Ke
April 4 , 2 0 0 y
                    ey
C0MPANY               Cer-t$ed Public Accountants
                      and Consultants




Office of Inspector General
Corporation for National and Community Service
1201 New York Ave. NW, Suite 830
Washington, DC 20525


                          INDEPENDENT AUDITOR'S REPORT

We have audited the accompanying Consolidated Schedule of Awards and Claimed Costs of the
Nebraska Volunteer Service Commission for the award numbers listed below under the terms of
the respective agreements between the Corporation for National and Community Services and
the Nebraska Volunteer Service Commission. The costs, as presented in this schedule, are the
responsibility of the Nebraska Volunteer Service Commission's management. Our responsibility
is to express an opinion on this schedule based on our audit.

                                                                        Transactions Reported on
  Program             Award Number                Award Period          Financial Status Reports
AmeriCorps            00ASCNE028               0810 1100 to 12131I03     0810 1101 to 12131I03
AmeriCorps            00ASFNE028               0810 1/00 to 12131/03     0810 1101 to 12131/03
AmeriCorps            03ACHNE00 1              0910 1I03 to 0813 1I06    0910 1/03 to 0313 1/04
AmeriCorps            03AFHNE00 1              09110103 to 09/09/06      O9/lO/O3 to 0313 1/04
PDAT                  02PDSNE029               01/01/02 to 12/31/04      0 1101/02 to 06/30/04
Administrative        01 SCSNE029              01/01/01 to 12/31/03       01/01/01 to 06130104
Administrative        04CAHNE00 1              01/01/04 to 12/31/06       0 1101I04 to 06/30/04

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedules are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

In our opinion, except for the omission of the supporting source documentation related to the
$78,325 in questioned costs discussed above, the Consolidated Schedule of Award Costs and the
grant-specific Schedules of Award, present fairly, in all material respects, the costs claimed for
the period July 1, 2000, to December 3 1, 2003, in conformity with the terms of the Nebraska
Volunteer Service Commission's grant agreements with the Nebraska Volunteer Service
Commission's grant agreements with the Corporation for National and Community Service.
    KEARNEY~
    COMPANY

In accordance with the Government Auditing Standards, we have also issued our report, dated
November 19,2004, on compliance and on internal controls over financial reporting.

This report is intended for the information and use of the Corporation for National and
Community Service's Office of Inspector General, management of the Corporation for National
and Community Service, the Nebraska Volunteer Service Commission and its subrecipients, and
the U.S. Congress. However, this report is a matter of public record and its distribution is not
limited.


 d 3~
    473
November 19,2004
Alexandria, Virginia
                       Nebraska Volunteer Service Commission
                  Consolidated Schedule of Awards and Claimed Costs
                           January 1,2001, to June 30,2004


                 Corporation for National and Community Service Awards



                                                        Approved         Claimed
  Award Number                 Program                   Budget           Costs
00ASCNE028          AmeriCorps (2001-02,2002-03)         $1,943,869      $1,451,912
00ASFNE028          AmeriCorps (2001-02,2002-03)            869,097         7 16,416
03ACHNE00 1         AmeriCorps (2003-04)                    353,886         128,855
03AFHNE00 1         AmeriCorps (2003-04)                    332,421         149.1 13
                    Total AmeriCorp                       3,499,273       2,446,297

                    PDAT (2002,2003,2004)                  29 1,923         173,658

                    Administrative (2002,2003)             3O9,78 1         29 1,404
                    Administrative (2004)                  169.32 1          73,177
                    Total Administrative                   479,102          364,581

TOTALS - Grants Administered by NVSC                     $4,270.298      $2,984, 535

Total ClaimedITotal Approved Budget                          69.9%
Total Federal Share QuestionecVTotal Claimed                  2.0%


The cost details provided above are explained in the supporting Exhibits A through D and
Schedule B- 1 through B-5 that follow in this report.
                        Nebraska Volunteer Service Commission
                      Notes to Consolidated Schedule of Award Costs
                             January 1,2001, to June 30,2004


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying Consolidated Schedule of Audited Award Costs includes amounts budgeted,
claimed, and questioned under AmeriCorps, Administrative, Program Development and Training
grants awarded to the Nebraska Volunteer Service Commission (NVSC) by the Corporation for
National and Community Service (Corporation) for the period from January 1, 2000, to June 30,
2004.

NVSC awards its AmeriCorps grant funds to numerous subrecipients that administer the
AmeriCorps program and report financial and programmatic results to NVSC and the
Corporation.

Basis of Accounting

The Schedule of Award Costs by Grantee and Subrecipients (Exhibit A, B, C, and D), and the
accompanying Schedule of Award Costs, Schedules B-1 to B-5, have been prepared to document
claimed and questioned costs as a result of our audit procedures performed. The information
presented in the Schedules has been prepared from the reports submitted by NVSC to the
Corporation. The basis of accounting used in preparation of these reports does not differ from
accounting principles generally accepted in the United States of America.
KEARNEY&
C0MPANY              Certzfied Public Accountants
                     and consultants




Office of Inspector General
Corporation for National and Community Service
1201 New York Ave. NW, Suite 830
Washington, DC 20525


   INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
               CONTROLS OVER FINANCIAL REPORTING


We have audited the Consolidated Schedule of Awards and Claimed Costs of the Nebraska
Volunteer Service Commission and have issued our report thereon, dated November 19, 2004.
Our audit included the Schedule of Award Costs, Exhibit B-D, that summarize the claimed costs
of the Nebraska Volunteer Service Commission and its sub-recipients under the Corporation
awards listed below:
                                                                      Transactions Reported on
  Program            Award Number                Award Period         Financial Status Reports
AmeriCorps           00ASCNE028               0810 1/00 to 12131103    O8/O 1101 to 12131I03
AmeriCorps           00ASFNE028               08/01/00 to 12131I03     08/01/01 to 12131/03
AmeriCorps           03ACHNE00 1              09/01/03 to 0813 1/06    0910 1I03 to 0313 1I04
AmeriCorps           03AFHNE00 1              09110103 to 09/09/06      O9/l 0103 to 0313 1/04
PDAT                 02PDSNE029               01/01/02 to 12/31/04      0 1101I02 to 06/30/04
Administrative       0 1SCSNE029              01/01/01 to 12/31/03      0 1101101 to 06/30/04
Administrative       04CAHNE00 1              01/01/04 to 12/31/06      0 1101/04 to 06/30/04

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedules are free of material misstatement.

In planning and performing our audit of award costs as presented in the Consolidated Schedule
of Awards and Claimed Costs for the period January 1,2001 to June 30,2004, we considered the
Nebraska Volunteer Service Commission's internal controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial schedules, and not to
provide assurance on the internal controls over financial reporting.

The Nebraska Volunteer Service Commission's management is responsible for establishing and
maintaining internal controls. In fulfilling this responsibility, estimates and judgments by
management are required to assess the expected benefits and related costs on internal control
    KEARNEY&
    COMPANY
policies and procedures. The objective of internal controls is to provide management with
reasonable, but not absolute, assurance that assets are safeguarded against loss from unauthorized
use or disposition. Internal controls also help to ensure that transactions are executed in
accordance with management's authorization and recorded properly to permit the preparation of
the financial schedules in accordance with generally accepted accounting principles of the United
States of America. Due to inherent limitations in any internal controls, errors or irregularities
may nevertheless occur and not be detected. Also, projection of any evaluation of the internal
controls to future periods is subject to the risk that procedures may become inadequate because
of changes in conditions or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

Our consideration of internal controls would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards established
by the American Institute of Certified Public Accountants, reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal controls that, in our judgment, could adversely affect the entity's ability to record,
process, summarize, and report financial data consistent with the assertions of management in
the financial schedules. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a relatively low
level the risk that errors or irregularities in amounts, which would be material in relation to the
financial schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

The following reportable conditions were identified during our audit.

MEMBER ELIGIBILITY AND COST ALLOWABILITY

Finding Number 1 - Member Support Costs in Excess of Federal Maximum Amount

Condition

We recomputed member living allowances and related FICA and Workman's Compensation
costs based on Web-Based Reporting System (WBRS) membership information. By comparing
the recomputed member living allowances to subrecipient records, we identified unallowable
costs for Grant Years 2001-02 and 2002-03 at Lutheran Family Services (LFS) and Community
Action of Nebraska (CAN). LFS claimed for reimbursement amounts that exceeded the Federal
maximum amount in Grant Year 2001-02. It also claimed for reimbursement a non-member's
cost and an additional month's cost for a member during Grant Year 2002-03. CAN has not
been able to identify the cause of its unallowable costs.

        AmeriCorps Special Provision 11. Living Allowances, Other In-service Benefits and
        Taxes states that the grantee must match any living allowances over 85% of the minimum
        living allowance.
    KEARNEY~
    COMPANY
The maximum Federal share of the living allowance was $7,905 and $8,160 for Grant Years
200 1-02 and 2002-03, respectively

Costs questioned:

                200 1-02                           CAN         LFS       Total
                Member Living Allowances          $34,226

                FICA                                3,620
                Workman's Comp                        282
                Subtotal                           38,128

                2002-03
                Member Living Allowances            4,503

                FICA                                1,895
                Workman's Comp                         47
                Subtotal                            6,445

                Total                             $44.573

Recommendation

The Corporation should request that NVSC investigate the source of CAN's unallowable costs
and potentially recapture them, recapture LFS's unallowable costs, as well as applicable
administrative costs, and implement policies to ensure that subrecipients are not reimbursed for
more than the maximum Federal share of living allowances.

NVSC 's Response

Immediately following the audit exit conference, NVSC worked with each subgrantee to
investigate the source of unallowable costs and to calculate the associated administrative costs.
The Commission intends to work with the Corporation throughout the audit resolution process to
appropriately recapture unallowable costs.

       CAN
       NVSC developed a spreadsheet to assist the subgrantee, which operated at multiple sites,
       to determine the exact Federal amount allowable for reimbursement for each individual
       member based upon slot status, enrollment date, and exit date. The auditor's calculations
       converted each slot to a percentage of one full-time-equivalent (FTE), multiplied that by
       one FTE living allowance, and projected costs only for those months the member served.
       At first, this logic appears to be correct. However, a half-time member's living
       allowance is not one-half of a full-time member's, but is prorated based upon 900 hours
       (a half-time member serves 900 hours, while a full-time member serves 1700 hours).
   KEARNEY&
   COMPANY
      The Commission and its programs relied upon AmeriCorps Provision 1l.b. in
      determining the maximum Federal share of living allowances for each member in the
      program. Thus, we believe members are eligible to receive the entire living allowance
      based upon their slot type, even if they do not serve the planned number of months. For
      example, a full-time member who enrolls in month three of the program year will still
      receive the maximum allowable living allowance, but it will be spread over nine months
      rather than twelve. Thus, one full-time member might receive a different amount each
      month than another member. The auditor's method does not account for this. By using
      this new method, which we believe is more exact and accurate, the questioned costs are
      reduced from over $40,000 to approximately $5,000. NVSC intends to work closely with
      the Corporation during the audit resolution process to ensure that any recapture of
      unallowable costs is handled appropriately.

      LFS
      Lutheran Family Services has researched and determined the source of the unallowable
      costs in this finding. They concur with the figures presented by the auditor and have
      asked for direction on providing reimbursement for these claimed costs, plus applicable
      administrative costs. NVSC intends to work closely with the Corporation during the
      audit resolution process to ensure that any recapture of unallowable costs is handled
      appropriately.

The Commission has also:

      Developed a monitoring tool to review member living allowances claimed by
      subgrantees. The Commission began using this tool immediately following the audit. A
      copy of that tool will be forwarded to the Corporation audit resolution office as part of
      this response.
      Updated its Program Tracker (a tickler system to track all program monitoring) to reflect
      when member living allowances are monitored, and by whom. This demonstrates that
      the new monitoring tool was put into use immediately following its development. A
      copy of the Program Tracker will be forwarded to the Corporation's audit resolution
      office as part of this response.
      Updated its Risk-Based Monitoring Procedure to reflect the appropriate methodology to
      monitor, on a regular basis, member living allowances claimed by subgrantees. A copy
      of the Risk-Based Monitoring Procedure will be forwarded to the Corporation's audit
      resolution office as part of this response.
      Reviewed and updated its internal procedure for processing and paying Periodic Expense
      Reports (PERs). A copy of this internal procedure will be forwarded to the Corporation's
      audit resolution office as part of this response.
Auditor's Comment

We analyzed the revised computation and supporting material provided to us by the
Commission. In addition, we reviewed AmeriCorps Provisions 11.a and b (Provision 11.a and
Provision 1 l.b), which address living allowances, and discussed the matter with the OIG. We
analyzed the calculations provided by the Commission and gained an understanding of their
approach. However, we believe our finding, as written, remains accurate.

The resolution of this issue will be based on the interpretation of Provision 1l.b, which states:
"The living allowance is designed to help members meet the necessary living expenses incurred
while participating in the AmeriCorps Program. Programs must not pay living allowance on an
hourly basis. It is not a wage and should not fluctuate based on the number of hours members
serve in a given time period." Our interpretation of the provision, confirmed with the OIG, is
that the living allowance could be flat pro-rata living allowance per month. We believe that this
interpretation is consistent with the Provision 11.b in that the amount does not vary based on the
numbers of hours served. Conversely, the Commission's methodology does, in fact, result in
paying members by the hour, i.e., members receive different monthly living allowances based on
their month of enrollment and the available time period in which they can complete the required
hours. We do not believe that this interpretation is consistent with Provision 1l.b. We
recommend that the Corporation and the Commission develop a common understanding of
Provision 11.a and Provision 11.b, and ensure that the interpretations are consistently applied.

We believe the procedures described in the Commission's response to correct the issue with
Lutheran Family Services and the actions taken to ensure this problem does not occur again,
subject to proper implementation and validation, should be sufficient to prevent the reoccurrence
of this finding in future audits.

Finding Number 2- Inadequate Support for Matching Costs

Condition

We determined that $17,875 claimed by the College of St. Mary's (CSM) for Other Cost
Matching expenses was not based on a systematic allocation of actual expenses. CSM based its
claim on budgeted amounts. The questioned costs totaled $7,150 in Grant Year 2001-2002,
$7 1,150 in Grant Year 2002-2003, and $3,575 in Grant Year 2003-04.

AmeriCorps Provision 13 c. Cash or In-Kind Match for Program Operating Costs states:

       Contributions, including cash and third party in-kind, will be accepted as
       part of the Grantee's matching share for Program Operating Costs (defined
       as those other than the Member Support Costs) when such contributions
       meet all of the following criteria:

       i) They are verifiable from Grantee records.
       ii) They are not included as contributions for any other Federally-assisted
            Program.
       iii) They are necessary and reasonable for the proper and efficient
            accomplishment of Program objectives.
       iv) They are allowable under applicable cost principles.

Recommendation

The Corporation should request that NVSC demonstrate that CSM met its cost matching
requirements and ensure that all subrecipients adequately document their matching costs.

NVSC's Response

The College of St. Mary (CSM) has responded to a Commission request for a systematic
allocation of matching costs claimed for the grant years named in this finding. The Commission
finds CSM's response adequate and believes that this finding is resolved. A copy of CSM's
response to all audit findings will be forwarded to the Corporation's audit resolution office as
part of this response.

The lack of a systematic allocation of matching costs was identified by the Commission as a
"continuous improvement" item for CSM during its most recent site visit (February 2004).
However, the Commission has determined that a similar finding in the future will result in a
finding of "non-compliance" and has modified its policy accordingly. The revised policy will be
approved by the full Commission on March 17, 2005 and will allow the Commission to withhold
reimbursement until the subgrantee is compliant in documenting the allocation of matching
costs. A copy of that revised policy will be forwarded to the Corporation's audit resolution
office as part of this response.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.

Finding Number 3- Inadequate Support for Lodginp Expense

Condition

CAN claimed for reimbursement $1,051 of lodging expense at an August 2001 training
conference, but could not support the allowability of this cost. Grant provisions require that
travel expenditures must comply with Federal Travel Regulation documentation requirements.

CAN was unable to provide documentation on which persons utilized the lodging and whether
these persons qualified for reimbursement, based on distance traveled, as outlined in the Federal
Travel Regulations.
Recommendation

The Corporation should request that NVSC recapture the unallowable travel expenses, and
applicable administrative costs, and ensure that all subrecipients maintain adequate supporting
documentation to verify claimed costs.

NVSC's Response

CAN responded to the Commission's request for resolution of this issue. CAN has surveyed
agencies to review documentation associated with additional travel costs (mileage, per diem,
etc.) and cannot determine the members who traveled to Lincoln for training in August 2001.
The $1,051 lodging expense remains unsupported. NVSC intends to work closely with the
Corporation during the audit resolution process to ensure that any recapture of unallowable costs
is handled appropriately.

In addition, the Commission will place even more emphasis on the importance of maintaining
adequate supporting documentation to verify claimed costs during its training of subgrantees.
This emphasis will occur in new, mandatory, pre-award programmatic & fiscal training, through
site visits and in regular communication from the Commission. The training and technical
assistance methodology the Commission will use is reflected in an updated Risk-Based
Monitoring Procedure, a copy of which will be forwarded to the Corporation's audit resolution
office as part of this response.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.

COMPLIANCE WITH GRANT PROVISIONS

Finding Number 4 - Membership Eligibility and Documentation

Condition
We reviewed 89 member files at five NVSC subrecipients for verification and documentation.
During our review, we identified the following exceptions:

       Two of 50 Lincoln Action Program (LAP) member files did not contain proof of
       citizenship. One member was enrolled in Youthbuild, which is an education award-only
       program. That member did not receive a living allowance and did not qualify for an
       education award. The other member worked only eight hours and received no living
       allowance. Therefore, no costs are questioned.

       In three of 50 LAP member files, proof of eligibility documentation was obtained 30 days
       after enrollment. In all three cases, the members were ultimately found eligible.
       However, without timely verification, an ineligible member could erroneously receive a
       living allowance. According to AmeriCorp provisions section A, Definition of a
       Member, members must be "a U.S. citizen, U.S. national, or lawful permanent resident
       alien of the United States."

Recommendation

The Corporation should require NVSC to ensure that member files contain required
documentation for eligibility and that this documentation be obtained prior to enrollment.

NVSC 's Response

The Commission believes this finding has been successfully addressed.

The recruitment procedures of the current Lincoln Action Program 2004-2005 CommUNITY
team required eligibility documentation to be submitted along with members' applications.
Applications did not move forward for consideration until the documentation was obtained. This
is now program procedure for future recruitment of members.

The Commission recognizes the importance of complete member files, including appropriate
documentation of member eligibility, and addresses this issue aggressively with its subgrantees.
Beginning immediately, NVSC will no longer sample member files, but will review 100 percent
of member files for compliance. Site visits for the 2004-2005 program year began in December
2004, and results were documented in site visit reports. Any member eligibility issues noted
during site visits have been successfully resolved by the due date in the site visit feedback letter.

The Commission will stress the necessity of programs getting all eligibility documentation from
a given member prior to enrollment. To that end, new grant year training will begin prior to the
start of the new grant year. Initial site visits will be scheduled within the first third of a given
program year to assure understanding and compliance. This is reflected in the Commission's
Risk-Based Monitoring Procedure, a copy of which will be forwarded to the Corporation's audit
resolution office as part of this response.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.
Finding Number 5 - Missing Documentation of Criminal Backmound Checks

Condition

For the 89 member files selected for review, we requested documentation of criminal
background checks. We found no documentation verifying that background checks had been
completed for 6 out of 50 LAP members. These six members' position descriptions indicated
they would be working with children. LAP officials maintained that they had performed the
background checks but had lost the documentation. LAP, subsequent to our audit finding,
performed new background checks, and provided us with supporting documentation.

AmeriCorps provision 6 h. Criminal Record Checks states:

       Programs with members or employees who have substantial direct contact
       with children (as defined by state law) or who perform service in the
       homes of children or individuals considered vulnerable by the program,
       shall, to the extent permitted by state and local law, conduct criminal
       record checks on these members or employees as part of the screening
       process. This documentation must be maintained consistent with state
       law.

Recommendation

The Corporation should require that NVSC, as part of its onsite reviews of subrecipients, test to
determine that required documentation for criminal record checks is kept.

NVSC's Response

The Commission believes this finding has been successfully addressed.

The Commission recognizes the importance of complete member files, including appropriate
criminal background checks, and addresses this issue aggressively with its subgrantees.
Beginning immediately, NVSC will no longer sample member files, but will review 100 percent
of member files for compliance. Site visits for the 2004-2005 program year began in December
2004, and results are documented in site visit reports. No criminal background check issues
were identified.

The Commission will stress the necessity of programs maintaining evidence of criminal
background checks on members who will serve vulnerable populations. To that end, new grant
year training will begin prior to the start of the new grant year. Initial site visits will be
scheduled within the first third of a given program year to assure understanding and compliance.
This is reflected in the Commission's Risk-Based Monitoring Procedure, a copy of which will be
forwarded to the Corporation's audit resolution office as part of this response.
    KEARNEY~
    COMPANY
Auditor 's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.

Finding Number 6 -Lack of Required Information in Member Contracts

Condition

We reviewed 89 member files at the five subrecipients for required information in member
contracts. We identified the following exceptions:

       Fifteen members whose member contract or file did not contain a position description.
           -   LAP - 3 out 50 members
           - CAN - 5 out of 15 members
           -   City of Lincoln - 5 out of 5 members
           - College of Saint Mary's - 2 out of 5 members
       Three members who did not have contracts.
           -   LAP - 2 out of 50 members
           -   CAN - 1 out of 15 members
       The College of Saint Mary's, which requires that members complete at least 60 credit
       hours at the school, did not include this requirement in its member contract.

AmeriCorps provision 7 b. Member Contracts states:

       The Grantee must require that members sign contracts that, at a minimum,
       stipulate the following:

            i.    The minimum number of service hours and other requirements (as
                  developed by the Program) necessary to successfully complete the term of
                  service and to be eligible for the education award;
            ..
            11.   Acceptable conduct;
            iii. Prohibited activities, including those specified in these grant provisions;
            iv. Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.);
            v. Suspension and termination rules;
            vi. The specific circumstances under which a member may be released for
                  cause;
            vii. The position description;
            viii. Grievance procedures; and
            ix. Other requirements as established by the Program.

Recommendation

The Corporation should require NVSC to perform testing during subrecipient reviews to ensure
that position descriptions are included in all member contracts and retained in the members'
    KEARNEY&
    COMPANY
files. Also, the Corporation should require NVSC to ensure that each member has signed a
member contract and that it is kept in the member's file. We further recommend that the
Corporation request NVSC to have the College of St. Mary document its additional member
requirements in its member contracts.

NVSC 's Response

The Commission believes that this finding has been successfully addressed.

The Commission recognizes the importance of complete member files, including signed member
contracts and position descriptions, and addresses this issue aggressively with its subgrantees.
Beginning immediately, NVSC will no longer sample member files, but will review 100 percent
of member files for compliance. Site visits for the 2004-2005 program year began in December
2004, and results are documented in site visit reports. Any issues of non-compliance are either
resolved, or expected to be resolved, by the deadline given to the program.

The Commission has requested, and the College of St. Mary has provided, signed member
contract addenda to its 2004-2005 program year member contracts that document its additional
member requirements. Copies of these addenda will be forwarded to the Corporation's audit
resolution office as part of this response.

A pre-award review of member contracts is required by the Commission's Risk-Based
Monitoring Procedure, a copy of which will be forwarded to the Corporation's audit resolution
office as part of this response.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.

Finding Number 7 - Mid- and End-of-Term Evaluations

Condition

Out of the 89 member files tested at the five subrecipients, we disclosed 47 members who had
not received both mid-term and end-of-term evaluations. The exceptions were identified at the
following subrecipients:

       LAP - 28 out of 50 members
       CAN - 5 out of 15 members
       LFS - 10 out of 14 members
       College of Saint Mary's - 2 out of 5 members
       City of Lincoln - 2 out of 5 members.

AmeriCorps provision 7 g. Performance Reviews states:
       The Grantee must conduct and keep a record of at least a mid-term and end-of-
       term written evaluation of each member's performance, focusing on such factors
       as:
       i. Whether the member has completed the required number of hours;
       ii. Whether the member has satisfactorily completed assignments; and
       iii. Whether the member has met other performance criteria that were clearly
            communicated at the beginning of the term of service.

Recommendation

The Corporation requires NVSC, as part of its monitoring, to determine that mid-term and end-
of-term member evaluations are being conducted and that the documentation is in each
member's file.

NVSC 's Response

The Commission believes that this finding has been successfully resolved.

The Commission recognizes the necessity of addressing this issue at a number of different times
and on a number of different levels. This issue has been addressed with each of its subgrantees
during the 2004-2005 program year site visits, which began in early December 2004. The
Commission's program officer has sent notices to programs reminding them of mid-term
member evaluations and asking them to provide the Commission a status update. This reminder
notice is now documented in the Commission's program year Program Tracker (a copy of which
will be forwarded to the Corporation's audit resolution office as part of this response).
Additionally, this issue will be addressed during pre-award technical assistance with all grantees.
The Commission will conduct an additional, mid-year review to ascertain that mid-year reviews
are complete and in member files and that the prior year's members have end-of-term
evaluations.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.

Finding Number 8 - Time sheets do not Contain Sufficient Location Detail

Condition

Of the 89 member files tested at the five sub-recipients, we found 19 members' time sheets that
did not contain information on the location of service performed and the project
assignment/description including:
      LAP - 3 out of 50 members' time sheets did not list the location of service performed; 2
      members' timesheets did not include the project assignment/description.
      CAN - 1 out of 15 member time sheets did not contain daily hours, location of service
      performed, and project description.
      LFS - 7 out of 14 member time sheets did not include the location of service performed
      and 1 out of 14 member time sheets did not have project assignment.
      City of Lincoln - 5 out of 5 members' time sheets did not include the location of service
      performed.

AmeriCorps provisions 14a. Record Keeping states:

       The records must be sufficient to establish that the individual was eligible
       to participate in the program and that the member successfully completed
       program requirements.

Recommendation

The Corporation should require NVSC to work with all subrecipients to ensure that time sheets
contain information on the location of service, project assignments/descriptions, and hours
worked.

NVSC 's Response

The Commission believes that this finding has been successfully resolved.

Testing to ensure that member time sheets reflect the location of service, project
assignments/descriptions, and the hours worked began for the 2004-2005 program year through
site visits in early December 2004. The new, mandatory pre-award training will include a
discussion of required elements for member time sheets. Additionally, the Commission's Risk-
Based Monitoring Procedure requires programs to submit templates of member time sheets for
review and approval prior to their use.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.

Finding Number 9 - Enrollment and Change of Status Forms

Condition

Out of 89 member files tested at the five subrecipients, we found 56 instances in which
subrecipients did not submit enrollment, change-of-status, and exitlend-of-term forms within 30
days. The exceptions existed at the following subrecipients:
          LAP - 20 out of 50 enrollment forms
                  1 out of 50 change-of-status forms
                  6 out of 50 exitlend-of-term forms
          CAN - 15 out 15 enrollment forms
                  6 out 15 exitlend-of-term forms
          LFS - 4 out 14 enrollment forms
                  1 out of 14 exitlend-of-term forms
          College of Saint Mary's - 3 out of 5 enrollment forms

AmeriCorps grant provision 16 b. AmeriCorp Member-Related Forms states:

      The Grantee is required to submit the following documents to the National
      Service Trust at the Corporation on forms provided by the Corporation. Grantees
      and Sub-Grantees may use WBRS to submit these forms electronically. Programs
      using WBRS must also maintain hard copies of the forms:

       i. Enrollment Forms. Enrollment forms must be submitted no later than 30 days
            after a member is enrolled.
       ii. Change of Status Forms. Member Change of Status Forms must be submitted
            no later than 30 days after a member's status is changed. By forwarding
            Member Change of Status Forms to the Corporation, State Commissions and
            Parent Organizations signal their approval of the change.
       iii. ExitIEnd-of-Term-of-Service Forms. Member ExitlEnd-of-Term-of-Service
            Forms must be submitted no later than 30 days after a member exits the
            program or finishes hislher term of service.

Recommendation

The Corporation should require that NVSC implement policies to ensure that enrollment forms,
change of status forms, and exitlend-of-term-of-service forms are submitted to the National
Service Trust within the 30-day requirement.

NVSC's Response

The Commission recognizes that the challenge of assuring that any change in status be
documented, and approved in WBRS within 30 days, must be addressed by a multi-faceted
approach. The importance of this 30-day deadline will receive increased emphasis in upcoming
trainings (including the mandatory pre-award training for programs). Program Directors will be
trained in the use of WBRS monitoring tools so that they can self-monitor their program's
compliance. Additionally, the Commission will develop a visual reminder for programs that will
remind them of the necessity of complying with the 30-day rule.
    KEARNEY~
    COMPANY
Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.

INTERNAL CONTROL FINDINGS

Finding Number 10 - Cash Basis account in^ for Vacation Expense

Condition

NVSC and one subrecipient, the City of Lincoln, claim employee vacation expense for
reimbursement as employlees use it, rather than as they earn it. This protocol could result in
unallowable costs if an ernployee transferred into a reimbursable position with large available
vacation balances and subsequently used vacation. If this occurred, the program would be
charged for vacation that was actually earned prior to the grant-related employment.

We observed that the employee base was relatively static and minimal amounts of vacation
expense were charged to the programs. Accordingly, we do not question the allowability of any
costs in the grant years under audit. However, the Corporation should be aware of potential
anomalies in the accounting system.

Recommendation

The Corporation should work with NVSC to monitor the allowability of incurred vacation costs.

NVSC 's Response

The Commission recognizes this potential anomaly in the State's accounting system, and
analyzed its current employee base to determine where any danger of this occurring might exist.
There are only two long-term State employees who came to the Commission with vacation
balances. Since being hired at the Commission, they have each used their vacation leave at a rate
much slower than they are earning it. The Commission is mindful of the need to monitor this
anomaly in the context of the State's negotiated labor contract and Nebraska State Employee
Rules and Regulations. The Commission has encouraged its subgrantee, the City of Lincoln, to
do the same.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.
Finding Number 11 - Member Living Allowance Over~avment

Condition

We identified two instances in which Blue Valley Community Action (BVCA), a subrecipient of
CAN, paid members in excess of their stated living allowances. This resulted from financial
records not containing up to date payroll information when amounts were disbursed. One
member was overpaid by $2,712 and another member received $173 in excess of their stated
living allowance. We determined that these excess costs were not reimbursed by the
Corporation, and therefore, we did not question the allowability of these costs.

Recommendation

The Corporation should request that NVSC follow up with BVAC to ensure that financial
policies are in place to prevent overpayment of member living allowances.

NVSC's Response

The Commission believes this finding has been successfully resolved.

Blue Valley Community Action Partnership utilizes the GMS Fund Accounting software for its
payroll system, which accounts for consistent employee compensation as salaried staff. In order
to award consistent living allowances to members, the "salaried" format was utilized.
Unfortunately, hours are only tabulated electronically using the "wage" format within their
system. The manual reconciliation which was normally done was overlooked. Once the
discovery was made, correction to the Corporation reimbursement request was made. The
members were not asked to refund the spent living allowances.

Consistent and timely reconciliations are now part of BVCA's procedure and this should not
occur again.

BVCA has forwarded a copy of this revised procedure, which is awaiting the approval of the
BVCA Board, to the Commission. This policy delineates the appropriate separation of duties to
reconcile payroll for AmeriCorps members to the agency's accounting system.

In addition, the Commission has implemented the safeguards outlined in its response to Finding
Number One to ensure that there is no reimbursement claimed for payment of member living
allowances higher than that allowable for Federal reimbursement.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.
     KEARNEY&
     COMPANY
Finding Number 12 - Lack of Financial and Programmatic Policies

The College of Saint Mary's (CSM) did not maintain documented financial or programmatic
policies. While we observed internal controls in existence, documented policies and procedures
are necessary to ensure con,sistent application.

Recommendation

The Corporation should require NVSC to follow up to determine if CSM's programmatic
policies were documented and provide guidance for the documentation of financial polices.

NVSC's Response

The lack of documented policies and procedures was identified by the Commission as a
"continuous improvement" item for the College during its most recent site visit (February 2004).
However, the Commission has determined that a similar finding in the future will result in a
finding of "non-compliance" and has modified its policy accordingly. The revised policy will be
approved by the full Commission on March 17, 2005, and will allow the Commission to
withhold reimbursement until the subgrantee is compliant in providing documentation of written
policies and procedures. A copy of that revised policy will be forwarded to the Corporation's
audit resolution office as part of this response.

On Monday, December 13, 2004, the Commission conducted a site visit of the CSM program
related to the 2004-2005 program year. The Program Director provided a draft copy of the
programmatic policy and procedure manual at that meeting. That manual has subsequently been
expanded and refined and was provided to the Commission on March 4,2005.

At the same time, the Cornmission recognized that it was highly unlikely that an organization
with the scope and reach of the College of St. Mary did not have written financial policies and
procedures and surmised that an issue of communication with staff at the College could be
playing a role in this finding. To that end, the Commission approached both the College
President and Corporate Financial Officer about the finding and asked for their involvement in
resolving the issue. The Commission also provided a copy of written financial policies and
procedures from another subgrantee to provide a context for what was being requested of CSM.

On Friday, March 4, 2005., Commission Staff and a Commissioner met with the CFO and other
staff of the College of St. Mary to review a written financial policy and procedure manual that
the College provided to the Commission. A copy of that manual will be forwarded to the
Corporation's audit resolution office as part of this response. The Commission finds it to be
compliant with the request and believes this finding has been resolved.
Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the reoccurrence of this finding in the future audits.



November 19,2004                 u
Alexandria, Virginia
                                                                                Exhibit A


                        Nebraska Volunteer Service Commission
                      Consolidated Schedule of Audited Award Costs
                            January 1,2001, to June 30,2004


                  Cornortationfor National and Community Service Awards


                                                     Approved    Claimed   Questioned
Award Number                 Program                  Budpet      Costs      Costs
00ASCNE028      AmeriCo~ps(2001-02,2002-03)          $1,943,869 $1,451,912   $45,624
00ASFNE028      AmeriCo~ps(200 1-02,2002-03)            869,097    716,416    32,701
03ACHNE00 1     AmeriCo~rps(2003-04)                    353,886    128,855
03AFHNE00 1     AmeriCoirps (2003-04)                   332,421    149,113          -
                Total AnieriCorp                      3,499,273 2,446,297     78,325

02PDSNE029      PDAT (2002,2003,2004)                  29 1,923      173,658

01 SCSNE029     Administrative (2002,2003)             309,78 1      29 1,404
04CAHNE00 1     Administrative (2004)                  169,321        73,177
                Total Administrative                   479,102       364.581

TOTALS - Grants Administered by NVSC                 $4.270.298   $2.984.535     $78.325

Total ClaimedTotal Approved Budget (Federal Share)       69.9%
Total QuestionedITotal Claimed (Federal Share)            2.0%
                                                                          Exhibit B
                                                                         Page 1 of 2

                    Nebraska Volunteer Service Commission
                           Schedule of Award Costs
               Corporation for National and Community Service
    Award Numbers 00~ASCNE028,00ASFNE028,OOACHNEOOl and OOAFHNEOOI
                                (AmeriCorps)
                       August 1,2001, to March 31,2004

    Detailed Audits of A.meriCorps      Claimed      Questioned
             Subrecipienp                Costs         Costs       Reference
00ASCNE028
 Community Action Nelbraska             $ 723,190      $45,624    Schedule B-5
 Lincoln Action Program                    728,722            -   Schedule B-3
 Total                                   1,451,912      45,624



 Lutheran Family Services                 205,225        14,826   Schedule B-2

  City of Lincoln                         119,825                 Schedule B-4

  College of St. Mary's                    8 1,634       14,300   Schedule B-1

  Groundwater Foundation                   93,238                 N/ A

  NE Community Foundation                 142,075                 N/ A

  NE Sustainable Agricultural Society      41,481                 N/ A
  Blue Valley Community Action -
  Planning Grant                                                  N/ A
  Total
03ACHNE001
  Lutheran Family Services                                        Schedule B-2
03AFHNE00 1
  College of St. Mary's                                           Schedule B-1
  Lincoln Action Program                                          Schedule B-3
  City of Lincoln                                                 Schedule B-4
  Total
Total                                                             Note 1
                                                                                  Exhibit B
                                                                                 Page 2 of 2




1.   The total claimed costs reported include costs claimed by subrecipients that were not
     tested as part of this audit. During the period covered by our audit, NVSC had nine
     AmeriCorp prograrn subrecipients. Accordingly, we used a sampling approach based on
     our Risk Assessme:nt and Audit Approach Memorandum, dated September 29, 2004, at
     the selected field sites to test the costs claimed for Program Years 2001-02 to 2003-04.
                                                                                 Schedule B-1
                       Nebraska Volunteer Service Commission
                              Schedule of Award Costs
                   Corporation for National and Community Service
              Award Nuimber 00ASFNE028 and 03AFHNEOOl(AmeriCorps)
                          August 1,2001, to March 31,2004

                                  College of Saint Mary's


Approved Budget (Federal Funds)                                                      Reference
     00ASFNE028                            200 1-2002          $55,548
      00ASFNE028                           2002-2003            49,597     105,145
     03AFHNE00 1                           2003-2004                        38,024
                                                                          $143.169 Note 1

Claimed Costs (Federal Funds)                                                        Note 2
      00ASFNE028                    200 1-02,2002-03            8 1,634
      03AFHNE00 1                            2003-04            18,158    $ 99.792


Questioned Costs
     00ASFNE028                     Matching                              $ 14,300 Note 3
     03AFHNE00 1                    Matching                                 3,575 Note 3

Total Questioned Costs                                                    $ 17.875

Notes
1. Approved Budget represents the total funding to the College of Saint Mary's (CSM) for
   Program Years 200 1-082 to 2003-04.
2. Claimed costs for 2004 represent CSM's reported expenditures, as of March 3 1,2004.

3. During cost testing at CSM, we determined that amounts used for other cost matching (i.e.,
   utilities, space rental, telephone, and internet access) were not supported by a systematic
   allocation of actual costs. The amounts reported represented the proportionate monthly share
   of the annual budget.
                                                                               Schedule B-2
                     Nebraska Volunteer Service Commission
                             Schedule of Award Costs
                  Corporation for National and Community Service
             Award Number 00ASFNE028 and 03ACHNE001 (AmeriCorps)
                         August 1,2001, to March 31,2004

                                 Lutheran Family Services

Approved Budget (Federal Funds)                                                    Reference
      00ASFNE028                           200 1-2002       $123,756
     00ASFNE028                            2002-2003         155,277     279,033
     03ACHNE00 1                           2003-2004                     353.886
                                                                        $632.919 Note 1

Claimed Costs (Federal Funds)
      00ASFNE028                     2001-02,2002-03        $205,225
      03ACHNE001                             2003-04         128,855
                                                                        $334.080 Note 2
Questioned Costs
      00ASFNE028
                         Member Living Allowance            $ 13,553               Note 3
                         FICA                                  1,250               Note 4
                         Workman's Compensation                   23               Note 4
Total Questioned Costs                                                  $ 14.826


Notes

1. Approved budget amount of $632,919 represents total funding to Lutheran Family Services
   (LFS) for Program Years 2001-02 through 2003-04.

2. Claimed costs for 2004 represent LFS's reported expenditures as of March 3 1,2004.

3. AmeriCorps Special Provision 11. Living Allowances, Other In-Service Benefits and Taxes
   states that the grantee imust match any living allowances over 85% of the minimum living
   allowance. We found variances of $4,577 and $8,976 for program years 2001-02 and 2002-
   03, respectively. The :2001-02variance resulted from a claimed living allowance that
   exceeded the Federal maximum, and the 2002-03 variance resulted from a claimed allowance
   for a non-member and a one-month overpayment.

4. The amounts for FICA and Workman' Compensation were questioned because they were
   related to the questioned living allowance.
                                                                                Schedule B-3
                     Nebraska Volunteer Service Commission
                             Schedule of Award Costs
                  Corporation for National and Community Service
             Award Number 00ASCNE028 and 03AFHNE001 (AmeriCorps)
                        August 1,2001, to March 31,2004

                                  Lincoln Action Program

Approved Budget (Federal Funds)                                                 Reference
      00ASCNE028                     200 1-2002       $423,500
      00ASCNE028                     2002-2003         433,934       857,434
      03AFHNE00 1                    2003-2004                       243,198
                                                                  $1.lOO.632 Note 1
Claimed Costs (Federal Funds)
      00ASCNE028              200 1-02,2002-03        $728,722
      03AFHNE00 1                      2003-04         104.281                  Note 2
                                                                  $ 833,003


Questioned Costs                                                  $         -



Notes

1. Approved budget amount of $1,100,632 represents total funding to the Lincoln Action
   Program (LAP) for Pragram Years 200 1-02 through 2003-04.

2. Claimed costs for 2004 represent LAP'S reported expenditures as of March 3 1,2004.
                                                                                Schedule B-4

                     Nebraska Volunteer Service Commission
                             Schedule of Award Costs
                  Corporation for National and Community Service
             Award Number 00ASCNE028 and 03AFHNE001 (AmeriCorps)
                         August 1,2001, to March 31,2004

                                      City of Lincoln

Approved Budget (Federal Funds)                                            Reference
     00ASFNE028                 200 1-2002         $ 35,000
      00ASFNE028                2002-2003           111,600      146,600
      03AFHNE00 1               2003-2004                         51.199
                                                                $197.799 Note 1
Claimed Costs (Federal Funds)
      00ASFNE028                    200 1-03                     119,825
      03AFHNE00 1                   2003-04                       26,674 Note 2
                                                                $146.499

Total Questioned Costs                                          $


Notes

1. Approved budget amount of $197,799 represents total funding to the City of Lincoln (CL) for
   Program Years 2001-02 through 2003-04.

2. Claimed costs for 2004 represent CL's reported expenditures as of March 3 1,2004.
                                                                                  Schedule B-5
                                                                                    Page 1 of 2

                         Nebraska Volunteer Service Commission
                                 Schedule of Award Costs
                     Corlporation for National and Community Service
                       Award Number 00ASCNE028 (AmeriCorps)
                            August 1,2001, to March 31,2004

                                Community Action Nebraska

Approved Budget (Federal Funds)                                                       Reference
      00ASCNE028                          200 1-2002        $689,634
        00ASCNE028                        2002-2003          396,801
                                                                         $1.086.435   Note 1

Claimed Costs (Federal Funds)                                            $ 723.190    Note 2

Questioned Costs
      00ASCNE028
                           Member Living
                           Allowance                        $ 38,729                  Note 3
                           FICA                                 5,5 15                Note 4
                           Workman's Comp                         329                 Note 4
                           Other Direct Costs                   1,05 1                Note 5
Total Questioned Costs                                                   $   45.624

Notes

1. Approved budget amount of $1,086,435 represents total funding to Community Action of
   Nebraska (CAN) for Program Years 2001-02 through 2002-03. CAN was not a subrecipient
   during Program Year 2003-04.

2. Claimed costs represent CAN's reported expenditures for Program Years 2001-02 through
   2002-03.

3. AmeriCorps Special Provision 1 1. Living Allowances, Other In-service Benefits and Taxes,
   states that the grantee :must match any living allowances over 85 percent of the minimum
   living allowance. We found a variance of $34,226 and $4,503 for Program Years 2001-02
   and 2002-03, respectively. The subrecipient has not been able to identify the cause of these
   variances.
                                                                                 Schedule B-5
                                                                                   Page 2 of 2

4. The amounts for FICA and Workman's Compensation were questioned because they were
   related the questioned living allowance.

5. This amount was for lodging expense at a training conference held by CAN for AmeriCorp
   during August 2001. The OIG audit program states that "if the expenditure is for travel, the
   expenditure complies with the Federal Travel Regulations." CAN was unable to show
   documentation to support what persons used the lodging and if this cost qualified for
   reimbursement under Federal Travel Regulations.
                                                                                   Exhibit C

                         Nebraska Volunteer Service Commission
                                 Schedule of Award Costs
                     Corlporation for National and Community Service
                          Award Numbers 02PDSNE029 (PDAT)
                             January 1,2002, to June 30,2004

                            Program Development and Training

Approved Budget (Federal Funds)                                                            Reference
     02PDSNE029                                           2002                  $ 99,000
     02PDSNE029                                           2003                    9 1,000
      02PDSNE029                                          2004                   101,923 Note 1
                                                                                $29 1.923

Claimed Costs                                                                   $173.658 Note 2

Questioned Costs                                                               $


Notes

1. Approved budget repiresents the total funding to the Program Development and Training
   (PDAT) grant for the three-year grant period, January 2002 to December 2004.
2. Claimed costs represent the amount of reported expenditures of the PDAT grant for the
   program years tested (.January 2001 through June 2004).
                                                                                     Exhibit D

                       Nebraska Volunteer Service Commission
                               Schedule of Award Costs
                   Corjporation for National and Community Service
                Award Numbers 01SCSNE029 and 04CAHNE001 (Admin)
                           January 1,2002, to June 30,2004


                                       Administrative

Approved Budget (Federal Funds)                                                 Reference
      0 1SCSNE029                         2002         $155,842
      0 1SCSNE029                         2003          153,939      3O9,78 1
      04CAHNE00 1                         2004                       l69,32 1
                                                                    $479.102 Note 1

Claimed Costs (Federal Funds)
      01SCSNE029
      04CAHNE00 1
                                                                    $364.58 1 Note 2

Questioned Costs


Notes

1. Approved budget represents the total funding to the Administrative grant for the January
   2002 to December 2004.

2. Claimed costs represent the amount of reported expenditures of the Administrative grant for
   the program years tested (January 1,2002 through June 30,2004).
                                         Follow-Up on Pre-Audit Survey Findings

                            OIG Audit Report No. 04-06, Pre-Award Survey Report of the
                                     Nebraska Volunteer Service Commission
    Cotton & Company LLP performed a Pre-Audit Survey and issued their findings to Corporation
    management on September 5, 2003. Since the issuance of the report, NVSC has worked to
    remediate the conditions and findings cited.

    A summary of the current status of the Pre-Audit Survey findings is as follows:
          Condition                 Cause -                    Effect                            Resolution
Enaasement: Pre-Audit Survev o f the Nebraska       lunteer Service Commiss
1 The Commission did        The written oolicies    The auditors were             NVSC provided the audit staff with copies
   not have written         and procedires did       unable to interview or       of their policies and procedures. We
   policies and             not exist; and all      obtain any oral               reviewed these documents and evaluated
   procedures for           personnel who had        information from             them as complete and adequate. NVSC
   internal control for the worked at the           employees with regard         maintains the policies in a central
   pre-audit survey         Commission during       to the Commission's           location.
   period [Program          that time were no        internal controls for the
   Years 2000-2001 and      longer employed by       pre-audit survey period.
   2001-20021.              the Commission.
                                                    Additionally, the auditors
                                                    were unable to
                                                    determine if the
                                                    Commission had
                                                    established any internal
                                                    controls for the current
                                                    period.

                                                    As a result, the auditors
                                                    were unable to
                                                    determine the adequacy
                                                    of internal controls or
                                                    perform any procedures
                                                    to determine if
                                                    orocedures were
                                                    operating as intended.
    The Commission did      The written p o l i s   The auditors were             NVSC provided the audit staff with copies
    not have written        and procedures did      unable to determine if        of their policies and procedures. We
    policies and            not exist; and all      the Commission's sub-         reviewed these documents and evaluated
    procedures for          personnel who had       grantee selection             them as complete and adequate. NVSC
    selecting sub-          worked at the           process was open and          maintains the policies in a central
    grantees for the pre-   Commission during       competitive in                location.
    audit survey period     that time were no       accordance with 45 CFR
    [Program Years          longer employed by      § 2550.80(b)(I).
    2000-2001 and 2001-     the Commission,
    20021.                                          Further, there was no
                                                    documentation as to
                                                    whether the sub-
                                                    grantees' financial
                                                    systems were evaluated
                                                    in the selection process.
I               Condition                                                      Effect             Recommendation         Applied',                     Resolution
         The Commission did        I   The written polic~es          The auditors were          The Commission              Yes      NVSC provided the audit staff with copies
         not have written              and procedures did            unable to perform test     represented that is                  of their policies and procedures. We
         policies and                  not exist; and all            procedures to determine    was in the process of                reviewed these documents and evaluated
         procedures for                personnel who had             the adequacy of grant      developing and                       them as complete and adequate. NVSC
         administering grant           worked at the                 administration.            implementing internal                maintains the policies in a central
         funds for the pre-            Commission during                                        control policies and                 location. The Nebraska Health and
         audit survey period           that time were no                                        procedures.                          Human Services System manages cash
         [Program Years                longer employed by                                                                            drawdowns from the US Department of
         2000-2001 and 2001-           the Commission.                                          The auditors                         Health and Human Services Payment
         20021.                                                                                 recommended that the                 Management System.
                                                                                                Corporation review the
                                                                                                newly formulated
                                                                                                policies and
                                                                                                procedures to
                                                                                                determine that they
                                                                                                are ~ r o ~ e r l v
    --                                                                                          implkmknted.
         The Commission's              The written p o l i c i e s   The auditors were          The Commission              Yes      NVSC provided the audit staff with
         files for administering       and procedures did            unable to determine        represented that is                  access to NVSC's 2003-2004 grant files.
         grant funds were              not exist; and all            what grant                 was in the process of                We reviewed these documents and
         inadequate for                personnel who had             administration             developing and                       observed that they are stored on a
         Program Years 2000-           worked at the                 procedures were            implementing internal                regular basis in a systematic manner
         2001 and 2001-2002.           Commission during             performed by the           control policies and                 consistent with reasonable business
                                       that time were no             Commission during the      procedures.                          practices. Spec~fically,we reviewed the
                                       longer employed by            pre-audit survey period.                                        site visit and grant administration files for
                                       the Commission.                                          The auditors                         the following subgrantees: City of Lincoln
                                                                                                recommended that the                 (COL). Lutheran Family Services (LFS),
                                                                                                Corporation review the               Lincoln Action Program (LAP), College of
                                                                                                newly formulated                     St. Mary's (CSM), and Community Action
                                                                                                policies and                         of Nebraska (CAN).
                                                                                                procedures to
                                                                                                determine that they
                                                                                                are properly
    --                                                                                          implemented.
         The Commission did            The written p o l i c i e s   The auditors were          The Commission              Yes      NVSC provided the audit staff with copies
         not have written              and procedures did            unable to determine if     represented that is                  of their policies and procedures. We
         policies and                  not exist; and all            the Commission             was in the process of                reviewed these documents and evaluated
         procedures for                personnel who had             followed procedures that   developing and                       them as complete and adequate. NVSC
         evaluating and                worked at the                 adequately evaluated       implementing internal                maintains the policies in a central
         monitoring sub-               Commission during             and monitored grants.      control policies and                 location.
         grantees for the pre-         that t ~ m ewere no                                      procedures.
         audit survey period           longer employed by
         [Program Years                the Commission.                                          The auditors
         2000-2001 and 2001-                                                                    recommended that the
         2002).                                                                                 Corporation review the
                                                                                                newly formulated
                                                                                                policies and
                                                                                                procedures to
                                                                                                determine that they
                                                                                                are properly
    --                                                                                          implemented.
         The Commission's              The written p o l i c i e s   The auditors were          The Commission              Yes      NVSC provided the audit staff with
         files related to              and procedures did            unable to determine if     represented that is                  access to NVSC's 2003-2004 grant files.
         evaluating and                not exist; and all            the Commission             was in the process of                We reviewed these documents and
         monitoring sub-               personnel who had             followed any grants        developing and                       observed that they are stored on a
         grantees were                 worked at the                 evaluation and             implementing internal                regular basis in a systematic manner
         incomplete for                Commission dunng              monitoring procedures      control policies and                 consistent with reasonable business
         Program Years 2000-           that time were no             during the pre-audit       procedures.                          practices. Specifically, we reviewed the
         2001 and 2001-2002.           longer employed by            survey period.                                                  site visit and grant administration files for
                                       the Commission.                                          The auditors                         the following sub-grantees: City of
                                                                                                recommended that the                 Lincoln-URP (COL), Lutheran Family
                                                                                                Corporation review the               Services-SUN (LFS), Lincoln Action
                                                                                                newly formulated                     Program-Community (LAP), College of
                                                                                                policies and                         St. Mary's-Alternatives In Retention
                                                                                                procedures to                        (CSM), and Community Action of
                                                                                                determine that they                  Nebraska (CAN).
                                                                                                are properly
    A                                                                                           implemented.


         This report is intended for the information and use of the Office of Inspector General, as well as
         the management of the Corporation, NVSC and its subrecipients, and the U.S Congress.
         However, this report is a matter of public record and its distribution is not limited.
                                      Appendix A

               Nebraska Volunteer Service Commission's Response

The NVSC responded to the draft audit report in the body of the report. For the NVSC
responses refer to each section titled "NVSC's Response".
                      Appendix B

Corporation for National and Community Service's Response
                                  c$mf;~kAL           &
                                  COMMUNITY




To:

From:

Cc:           ~ n d r e d ~ l e i nActing
                                   e,     Chief F
              Rosie h k k , Director of Arneri
              Tory Willson, Audit Resolutio

Date:         March 15,2005

Subject:      Response to OIG Draft Incurred-Cost Audit of Grants Awarded to the
              Nebraslka Volunteer Service Commission

We have reviewed the draft incurred-cost audit of Grants awarded to the Nebraska
Volunteer Service Colnrnission Due to the limited timeframe for response, we have not
thoroughly reviewed the report nor have we discussed it with the grantee. We will
respond to all findings: and recommendations when the audit is issued and we have
reviewed the findings in detail.




                        1201 New York Avenue, NW     *
                                                    Washington, DC 20525
                              202-606-5000    *
                                              www.nationalservice.org              USA=
                                                                                   Freedom Corns
                        Senior Corps   * AmeriCorps * Learn and Serve America                                I
                                                                                   The President's Call to Service
